FEDERAL PUBLIC DEFENDER
Southern District of Florida
www.fpdsouthflorida.org

Michael Caruso
Federal Public Defender

Location: Fort Lauderdale

Hector A. Dopico
Chief Assistant
May 27, 2021
Miami:
Helaine B. Batoff
Sowmya Bharathi
R. D'Arsey Houlihan
Supervising Attorneys
Stewart G. Abrams
Abigail Becker
Elizabeth Blair
Anshu Budhrani
Vanessa Chen
Eric Cohen
Tracy Dreispul
Christian Dunham
Daniel L. Ecarius
Aimee Ferrer
Julie Holt
Andrew Jacobs
Sara Kane
Ashley Kay
Lauren Krasnoff
Bunmi Lomax
Ian McDonald
Kate Mollison
Kirsten Nelson
Joaquin E. Padilla
Bonnie Phillips-Williams
Laura Sayler
Savita Sivakumar
Kate Taylor
Ft. Lauderdale:
Robert N. Berube
Bernardo Lopez,
Supervising Attorneys
Andrew Adler
Huda Ajlani-Macri
Janice Bergmann
Brenda G. Bryn
Timothy M. Day
Robin J. Farnsworth
Margaret Y. Foldes
Juan Michelen
Jan C. Smith
Gail M. Stage
Daryl E. Wilcox

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Dwyne Deruise v. United States, No. 20-6953
Dear Mr. Harris:
I am replacing my colleague and co-counsel Peter Birch as counsel
of record for Petitioner Dwyne Deruise in the above-captioned matter.
Pursuant to Rule 15.5, Petitioner waives the 14-day waiting period
for distribution. Petitioner respectfully requests that the petition
materials be distributed on the Court’s next distribution date for in forma
pauperis cases, which I understand to be June 2, 2021. Petitioner plans to
submit his reply brief on or before that date, so that the Court will have
the benefit of full briefing before its conference of June 17, 2021.
Thank you for your consideration. Please do not hesitate to contact
me if you have any questions or concerns.
Sincerely yours,

West Palm Beach:

/s/ Andrew L. Adler
Assistant Fed. Public Defender
Counsel for Petitioner

Peter Birch,
Supervising Attorney
Robert E. Adler
Lori Barrist
Scott Berry
Caroline McCrae
Kristy Militello
Fort Pierce:

cc: Elizabeth B. Prelogar, Acting U.S. Solicitor General

Panayotta Augustin-Birch
R. Fletcher Peacock

Miami
150 West Flagler Street
Suite 1500
Miami, FL 33130-1555
Tel: (305) 536-6900
Fax: (305) 530-7120

Ft. Lauderdale
One East Broward Boulevard
Suite 1100
Ft. Lauderdale, FL 33301-1842
Tel: (954) 356-7436
Fax: (954) 356-7556

West Palm Beach
450 Australian Avenue South
Suite 500
West Palm Beach, FL 33401-5040
Tel: (561) 833-6288
Fax: (561) 833-0368

Ft. Pierce
109 North 2nd Street
Ft. Pierce, FL 34950
Tel: (772) 489-2123
Fax: (772) 489-3997

